APPENDIX

ia
TABLE OF CONTENTS
Page
Published Opinion of the
United States Court of Appeals
For the Fourth Circuit
Re: Affirming Judgment of District Court
entered March 23, 2020 .................................................................................... 1a
Judgment
United States Court of Appeals
For the Fourth Circuit
Re: Affirming Judgment of District Court
entered March 23, 2020 .................................................................................. 17a
Judgment of the
United States District Court
For the Northern District of West Virginia
entered November 8, 2018 .............................................................................. 18a
Order of the
United States Court of Appeals
For the Fourth Circuit
Re: Denying Petition for Rehearing
entered April 20, 2020 .................................................................................... 25a

1a
USCA4 Appeal: 18-4837

Doc: 39

Filed: 03/23/2020

Pg: 1 of 16

PUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 18-4837
UNITED STATES OF AMERICA,
Plaintiff – Appellee,
v.
CHARLES C. WILLIAMSON,
Defendant – Appellant.

Appeal from the United States District Court for the Northern District of West Virginia, at
Wheeling. John Preston Bailey, District Judge. (5:18-cr-00022-JPB-JPM-1)
Argued: January 29, 2020

Decided: March 23, 2020

Before WILKINSON, NIEMEYER, and MOTZ, Circuit Judges.
Affirmed by published opinion. Judge Wilkinson wrote the opinion, in which Judge
Niemeyer and Judge Motz joined.
ARGUED: David W. Frame, LAW OFFICE OF DAVID W. FRAME, Clarksburg, West
Virginia, for Appellant. Robert Hugh McWilliams, Jr., OFFICE OF THE UNITED
STATES ATTORNEY, Wheeling, West Virginia, for Appellee. ON BRIEF: William J.
Powell, United States Attorney, OFFICE OF THE UNITED STATES ATTORNEY,
Wheeling, West Virginia, for Appellee.

USCA4 Appeal: 18-4837

Doc: 39

2a
Filed: 03/23/2020

Pg: 2 of 16

WILKINSON, Circuit Judge:
In our criminal justice system, sentences for drug offenses are primarily based on
the type and weight of the drug involved. In July 2018, Charles C. Williamson pleaded
guilty to one count of aiding-and-abetting the distribution of methamphetamine. At
sentencing, when deciding on the quantity of methamphetamine to attribute to Williamson,
the district judge counted those drugs that Williamson and his accomplice sold, as well as
those that the accomplice used “recreationally.” Williamson’s claim on appeal is solely
that his accomplice’s personal use should not have counted. We disagree. And finding no
other error with Williamson’s sentence, we affirm.
I.
On June 5, 2018, a grand jury for the United States District Court for the Northern
District of West Virginia returned a three-count indictment against Williamson. Count one
charged him with conspiracy to distribute methamphetamine, heroin, cocaine, and cocaine
base in violation of 21 U.S.C. §§ 846 and 841(b)(1)(C). Counts two and three charged
Williamson with aiding-and-abetting the distribution of methamphetamine, in violation of
21 U.S.C. §§ 841(a)(1) and 841(b)(1)(C). The indictment did not specify a drug weight,
which meant that Williamson faced a statutorily-prescribed sentencing range of zero to
twenty years imprisonment for each count. The grand jury also indicted Brea M. Saeger,
who was Williamson’s accomplice and on-and-off-girlfriend, for the same three offenses.
On July 16, 2018, without the benefit of a plea agreement, Williamson pleaded
guilty to one count of aiding-and-abetting the distribution of methamphetamine. The
general nature of this drug trafficking scheme is not at issue. In short, Williamson would
2

USCA4 Appeal: 18-4837

Doc: 39

3a
Filed: 03/23/2020

Pg: 3 of 16

receive methamphetamine from a supplier—mostly in crystal form (“Ice”), but sometimes
in powder. He would then give at least some of that methamphetamine to Saeger. From
there, the two shared roles. Williamson and Saeger were both involved in packaging and
distributing a portion of the methamphetamine. The two also recreationally used the other
portion of the methamphetamine.
A presentence report was prepared in August 2018. The report calculated the weight
of methamphetamine attributable to Williamson from three sources: (i) two controlled
buys, (ii) one seizure following a duly-executed search warrant, and (iii) two statements,
one from one of Williamson’s purported customers, and another from Saeger, who noted
how much methamphetamine she received from Williamson over their time together. The
vast bulk of the methamphetamine attributed to Williamson in the report was based on
Saeger’s account. Williamson filed only one objection. He argued that it was legal error
to count the drugs he gave to Saeger that she used personally because she was his
accomplice, not a customer.
On November 7, 2018, a sentencing hearing was held for Williamson.

The

government called only one witness: Saeger, who had since pleaded guilty to one count of
aiding-and-abetting the distribution of methamphetamine, and had entered a plea
agreement with the government in exchange for her cooperation against Williamson.
Saeger testified that she received one gram of methamphetamine a day from Williamson
from August 2016 to May 2018. Of this, she said, about 90 percent was “Ice” (crystal
methamphetamine) while 10 percent was powder methamphetamine. She also testified
that they would sell roughly $20 worth of methamphetamine each day, and then would
3

USCA4 Appeal: 18-4837

Doc: 39

4a
Filed: 03/23/2020

Pg: 4 of 16

consume the rest of the daily gram recreationally. Saeger did not say how much of this
latter amount she used by herself, as compared to how much she used together with
Williamson. Williamson did not testify nor did he call any witnesses on his behalf.
The only major open issue at sentencing was the quantity of methamphetamine
attributable to Williamson. To determine this, the district judge appeared to rely primarily
on Saeger’s testimony. The court reasoned that if Saeger received one gram a day from
Williamson for at least 21 months (August 2016 to May 2018), that would come to about
630 grams of methamphetamine. The court, however, refined this figure in several ways.
First, in light of the fact that one gram of “Ice” is equivalent to ten grams of powder
methamphetamine under the Guidelines, the district court focused only on how much “Ice”
Williamson gave Saeger. See U.S.S.G. § 2D1.1(c). The district judge noted that Saeger
had said that about 90 percent of the methamphetamine she received from Williamson was
“Ice,” so the court reduced the amount attributable to Williamson to 540 grams of “Ice”
(roughly 85 percent of the total methamphetamine). Second, the district judge observed
that Saeger had explained that she was intermittently separated from Williamson over the
relevant 21-month period, and found it was unlikely that she actually received one gram
per day from him without interruption. As such, the district court decided that it was
appropriate to set Williamson’s base offense level at 32, which corresponds to 150 to 500
grams of “Ice,” rather than 34, which is used for 500 to 1,500 grams of the same. Id.
§ 2D1.1(c)(3)-(4).

As relevant here, the district judge did not consider how much

methamphetamine Williamson or Saeger set aside for “personal use.”

4

USCA4 Appeal: 18-4837

Doc: 39

5a
Filed: 03/23/2020

Pg: 5 of 16

With the base offense level set, the district court then turned to the other factors
under the Guidelines. It added a two level enhancement for obstruction of justice, but then
subtracted three levels for acceptance of responsibility, bringing the total offense level to
31. Williamson’s criminal history was category II. Williamson does not challenge any of
these determinations. Put together, the recommended range under the Guidelines was 121
to 151 months imprisonment. The district court then sentenced Williamson to 121 months,
with credit for time served, and 3 years of supervised release. The government dismissed
the other two counts from the indictment against Williamson. This timely appeal followed.
II.
Sentences must be both procedurally and substantively reasonable. See Gall v.
United States, 552 U.S. 38, 46 (2007). A sentence is not procedurally reasonable if the
district court improperly calculated the Guidelines range. Id. at 51. Williamson’s main
claim on appeal is that the district judge did just that by making a legal error—counting the
drugs that Williamson gave to his accomplice/girlfriend, Saeger, and that she used
personally—which led to a higher recommendation than he should have received. We
review a district court’s legal conclusions de novo. United States v. Layton, 564 F.3d 330,
334 (4th Cir. 2009).
A.
As noted, punishments for drug offenses in our system are principally determined
by the type and weight of drug involved in the criminal activity. Williamson’s claim is
about when drugs allegedly kept by an accomplice for “personal use” can be included as
part of that calculation. To understand this case, it is first necessary to understand the
5

USCA4 Appeal: 18-4837

Doc: 39

6a
Filed: 03/23/2020

Pg: 6 of 16

central role that drug weight plays in defining drug offenses. Specifically, it is essential to
appreciate how federal law links the seriousness of a drug offense to the drug quantity at
issue and, relatedly, how judges ordinarily determine the weight for which a given
defendant is responsible.
Congress has made plain that the seriousness of a drug offense should be tied to the
type and quantity of drug involved. In particular, in 1986, Congress passed the Anti-Drug
Abuse Act (“ADAA”), which established a “weight-driven scheme” for punishing drug
offenses. Kimbrough v. United States, 552 U.S. 85, 96 (2007). This scheme has two core
parts. First, it created a tiered system of mandatory minimum and enhanced maximum
sentences for drug crimes, with a five-year mandatory minimum for “serious” dealers and
a ten-year mandatory minimum for “major” ones. Id. at 95. Second, Congress decided on
“the weight of the drugs involved in the offense as the sole proxy to identify ‘major’ and
‘serious’ dealers.” Ibid. In so many words, the higher the weight, the higher the penalty.
The ADAA’s weight-driven scheme was a conscious departure from past practice.
Before the ADAA, federal law generally did not impose mandatory minimums on drug
offenses, and did not parse drug crimes on the basis of weight. See Pub. L. No. 91-513, 84
Stat. 1236 (Comprehensive Drug Abuse Prevention and Control Act of 1970). But
Congress ultimately found this regime ineffective and inadequate. Specifically, Congress
took issue with the fact that “the controlled substances law[s] did not distinguish drug
traffickers by the quantities of drugs they were responsible for selling and smuggling,”
leading to a federal enforcement scheme that lacked “focus” and “direction.” See H.R.
Rep. No. 99-845, at 11 (1986) (House Judiciary Subcommittee on Crime report for a
6

USCA4 Appeal: 18-4837

Doc: 39

7a
Filed: 03/23/2020

Pg: 7 of 16

precursor bill to the ADAA). To remedy this defect, the ADAA identified drug quantity
as the best metric for evaluating the seriousness of a drug offense. Id. at 12. And while
Congress has amended how heavily certain types and weights of drugs are punished, e.g.,
Pub. L. No. 111-220, 124 Stat. 2372 (Fair Sentencing Act of 2010), it has consistently
retained the ADAA’s weight-driven design.
The Sentencing Guidelines, moreover, follow this design. While federal statutes set
the floor and ceiling for a possible sentence, the Guidelines were put in place to assist
district judges in selecting an informed point within that range. Critically, while the
Sentencing Commission “developed Guidelines sentences using an empirical approach
based on data about past sentencing practices” for most crimes, it took a different tack with
drug crimes in light of the ADAA. Kimbrough, 552 U.S. at 96. Specifically, faithful to
Congress’s policy judgments, the Commission took the ADAA as a mandate to increase
drug sentences above traditional benchmarks and, furthermore, to calibrate sentences to the
type and quantity of drug involved in a certain conviction. U.S. Dep’t of Justice, An
Analysis of Non-violent Drug Offenders With Minimal Criminal Histories 15 (1994)
(“[D]rug quantities . . . are the single most important determinant of the drug offender’s
sentence length.”). The most important part of the Guidelines for drug offenses is the Drug
Quantity Table, which assigns base offense levels according to these objective metrics,
consistent with the ADAA. Kimbrough, U.S. at 96-97; see also U.S.S.G. ch. 1, pt. A, § 3
(2000). As above, while the Guidelines have changed features of this Table over time, they
have always stuck to a weight-driven approach in their recommendations for drug crimes.

7

USCA4 Appeal: 18-4837

Doc: 39

8a
Filed: 03/23/2020

Pg: 8 of 16

At bottom, Congress made a clear policy judgment in the ADAA, and the Guidelines
followed suit: the severity of a drug offense must turn on the weight of the drugs involved.
B.
This policy judgment about the central import of drug weight pervades how district
judges ordinarily decide the drug quantity attributable to a defendant under the Guidelines.
(The terms “weight” and “quantity” are most often used synonymously.)
The applicable Section for violations of 21 U.S.C § 841(a), which is the law that
covers Williamson’s conviction as well as other drug trafficking offenses, is Section 2D1.1.
That Section states that the “base offense level” for a drug offender whose crime does not
involve death or serious bodily injury is dictated exclusively by the Drug Quantity Table—
the table, mentioned above, that gives a base offense level pegged to the type and quantity
of drug at issue. See U.S.S.G. §§ 2D1.1(a)(5), 2D1.1(c); see also United States v. Gill, 348
F.3d 147, 151 (6th Cir. 2003). For instance, recall that 150 grams of “Ice” leads to a base
offense level of 32.
The amount that is plugged into the Drug Quantity Table is not necessarily the same
drug quantity that determines a defendant’s statutory minimum and maximum sentence
under 21 U.S.C. § 841. Instead, the Guidelines make plain that a court should look to both
the offense of conviction and a defendant’s “relevant conduct.” U.S.S.G. § 1B1.2(b).
Conceptually, of course, “relevant conduct” means a defendant’s own behavior generally
surrounding the offense of conviction and also, when applicable, the behavior of his
accomplices or co-conspirators. See United States v. Wright, 873 F.2d 437, 441 (1st Cir.
1989) (Breyer, J.) (noting that “very roughly speaking, [relevant conduct] corresponds to
8

USCA4 Appeal: 18-4837

Doc: 39

9a
Filed: 03/23/2020

Pg: 9 of 16

those actions and circumstances that courts typically took into account when sentencing
prior to the Guidelines’ enactment”); see also United States v. Carter, 300 F.3d 415, 425
(4th Cir. 2002) (reiterating that such conduct must only be proven by a preponderance of
the evidence). For drug offenses, the Guidelines make clear that “[t]ypes and quantities of
drugs not specified in the count of conviction may be considered in determining the offense
level,” as long as those drugs were part of “relevant conduct” under the Guidelines. See
U.S.S.G. § 2D1.1, cmt. n.5.
Williamson claims simply that drugs possessed or consumed for “personal use” by
his accomplice fall outside the ambit of relevant conduct here. This court has not decided
whether drugs set aside for “personal use” could be included as relevant conduct for a
standalone conviction of aiding-and-abetting the distribution of a controlled substance—
the only offense to which Williamson pleaded guilty. And it does not seem that any other
circuit has done so. But our sister circuits have weighed in on this issue in a closely
analogous context.
Every circuit to address the question has held that drugs consumed or possessed for
“personal use” may be counted as relevant conduct at sentencing for the crime of
conspiring-to-distribute a controlled substance. United States v. Iglesias, 535 F.3d 150,
160 (3d Cir. 2008); United States v. Clark, 389 F.3d 141, 142 (5th Cir. 2004); United States
v. Page, 232 F.3d 536, 542 (6th Cir. 2000); United States v. Asch, 207 F.3d 1238, 1243-44
(10th Cir. 2000); United States v. Stone, 139 F.3d 822, 826 (11th Cir. 1998); United States
v. Fregoso, 60 F.3d 1314, 1328-29 (8th Cir. 1995); United States v. Snook, 60 F.3d 394,
396 (7th Cir. 1995); United States v. Innamorati, 996 F.2d 456, 492 (1st Cir. 1993). These
9

USCA4 Appeal: 18-4837

Doc: 39

10a
Filed: 03/23/2020

Pg: 10 of 16

circuits, at heart, have reasoned that what generally matters under the Guidelines in the
context of a conspiracy is the total quantity of drugs involved in the entire enterprise, not
what individual co-conspirators choose to do with those drugs. As Judge Posner put it:
Suppose that X sells Y a kilogram of cocaine in circumstances that make Y
a conspirator with X and not merely a buyer from him. The amount of drugs
involved in the conspiracy is unaffected by the use that Y makes of the drugs.
It makes no difference whether he sells the entire amount and buys drugs for
his personal consumption on the open market with the proceeds or keeps a
portion of the drugs to consume personally as compensation for his
participation in the conspiracy.
United States v. Wyss, 147 F.3d 631, 632 (7th Cir. 1998); see also Innamorati, 996 F.2d at
492 (“[T]he defendant’s purchases for personal use are relevant in determining the quantity
of drugs that the defendant knew were distributed by the conspiracy.”). This makes sense:
when sentencing people who were part of different conspiracies but were convicted under
the same statute, the Guidelines treat members of more serious conspiracies more seriously,
and the seriousness of a drug conspiracy, as noted, corresponds to the drug weight at issue.
We therefore agree with the overwhelming consensus of our sister circuits that drugs
consumed or possessed for personal use may be considered as relevant conduct at
sentencing for a conspiracy-to-distribute conviction. *
C.
Williamson insists, however, that drugs set aside for an accomplice’s “personal use”
may not be included as relevant conduct for the crime of aiding-and-abetting the

*

We express no thoughts, however, on the relevance of a defendant’s own “personal
use,” where such drugs were not obtained in connection with jointly undertaken criminal
activity. That question was simply not raised in this appeal.
10

USCA4 Appeal: 18-4837

Doc: 39

11a
Filed: 03/23/2020

Pg: 11 of 16

distribution of a controlled substance. In particular, he argues that he should not be on the
hook for the drugs that he distributed to Saeger for her “personal use” because “drug
quantities consumed by personal use of an accomplice are not within the scope of the
jointly undertaken criminal activity.” App. Br. at 15. For this reason, Williamson says,
those drugs used personally by Saeger should not have counted at sentencing since
“[r]elevant conduct should extend no further than the drug quantity involved in the offense
of conviction,” id. at 14, and her personal use was not part of the offense of conviction’s
distributional scheme.
Williamson’s argument fails for multiple reasons. Initially, his notion of a “personal
use” exception for an accomplice is nowhere in the text of the Guidelines. See U.S.S.G.
§ 2D1.1. Tellingly, the Guidelines have a number of sections that instruct district courts
to reduce a defendant’s base offense level when doing so would better account for his
culpability. For instance, Section 3B1.2 directs judges to lower a defendant’s offense level
if he was a “minimal” or “minor” participant in the criminal enterprise. But there is nothing
in the text of the Guidelines that even glancingly can be taken as something similar to the
sort of “personal use” exception that Williamson champions before us.
The absence of such a “personal use” by accomplice exception is not surprising
because its underlying premise intuitively cuts against the entire weight-based scheme for
punishing drug offenses described above. The touchstone for the severity of drug offenses,
as we have noted, is the weight of the drugs involved in the criminal activity. The exception
offered by Williamson here is not simply atextual—rather, it is in the teeth of how the
Guidelines account for this weight-driven scheme through relevant conduct. Indeed, as
11

USCA4 Appeal: 18-4837

Doc: 39

12a
Filed: 03/23/2020

Pg: 12 of 16

Section 1B1.3(a)(1)—the provision that is most directly applicable to a case like this, see,
e.g., Gill, 348 F.3d at 153—makes plain, relevant conduct covers a defendant’s actions
“that occurred during the commission of the offense of conviction, in preparation for that
offense, or in the course of attempting to avoid detection or responsibility for that offense.”
U.S.S.G. § 1B1.3(a)(1) (emphasis added). Nothing about this concept suggests that
conduct that is otherwise relevant suddenly becomes irrelevant if the unlawful substances
with which the defendant is associated are assertedly for the “personal use” of an
accomplice.
Williamson argues for a particularly problematic application of this atextual
concept. He has pleaded guilty to a distributional offense, not one of simple possession,
and he makes no bones about having distributed to Saeger the “Ice” at issue here. Instead,
he is averring on appeal that Saeger’s personal use should be treated as his own because
she was his accomplice in the matter. But this misses the mark. To put it plainly,
distribution is the very anthesis of “personal use,” and what a recipient decides to do with
drugs given to her by a distributor has no bearing on the quantity of drugs she received
from the distributor in the first place.
It is apparent too that Williamson’s foundational proposition—that he, in short,
should be treated as one with Saeger—falters for yet a further reason. As noted, every
circuit to reach the issue has held that drugs possessed or consumed for “personal use” may
be included as relevant conduct for conspiracy-to-distribute convictions. And while
conspiracies might appear to present the least defensible case for application of any
“personal use” exception, the animating rationale behind those decisions is certainly
12

USCA4 Appeal: 18-4837

Doc: 39

13a
Filed: 03/23/2020

Pg: 13 of 16

applicable in the context of aiding-and-abetting, conspiracy’s close kin. Consistent with
traditional maxims of conspiracy law, Callanan v. United States, 364 U.S. 587, 593 (1961),
our sister circuits have recognized that collective criminal activity poses an especially acute
danger to civil society. As such, when interpreting the Guidelines in the context of joint
criminal activity, these courts have rightly focused on the scope of the entire criminal
enterprise; that is, generally speaking, the total amount of drugs in circulation that a
defendant was aware of or were reasonably foreseeable. See United States v. Bell, 667
F.3d 431, 442 (4th Cir. 2011) (approvingly citing germane case law from other circuits).
So much so here. Aiding-and-abetting the distribution of a controlled substance is
also an inherently collective enterprise, one that must go beyond a mere buyer-seller
transaction. See United States v. Colon, 549 F.3d 565, 571 (7th Cir. 2008). And as the
scope of the endeavor grows, so does its seriousness. This is true no matter how the
accomplice’s drugs are specifically allocated. In fact, to exclude an accomplice’s “personal
use” quantities in this context would be to ignore the reality that “personal use”
consumption often drives the expansion of criminal schemes, because the more someone
uses, the more likely she will need to sell to afford her budding addiction (thereby growing
the enterprise even more). See Snook, 60 F.3d at 396 (noting “the more [the defendant]
used, the more he had to sell to bank-roll his habit”). For these reasons, Williamson is dead
wrong to say that the “personal use” of his accomplice should not count. By contrast, when
evaluating the seriousness of a joint criminal activity like aiding-and-abetting, it stands to
reason that the total amount of apparent or foreseeable drugs in circulation, however used
by his accomplice, is of the highest import. See, e.g., Innamorati, 996 F.2d at 492.
13

USCA4 Appeal: 18-4837

Doc: 39

14a
Filed: 03/23/2020

Pg: 14 of 16

If this were not enough, the practical dynamics of sentencing militate against
embracing Williamson’s proposed “personal use” exception. It is not difficult to foresee
that recognizing such an exception would prompt many a drug offender to claim at
sentencing that whatever drugs were found in his accomplice’s possession or ambit were
intended for “personal use.” But we are not inclined to burden district judges with such an
indeterminate inquiry. The line separating “personal use” from “non-personal use” is
inherently fluid, fluctuating based on a drug offender’s cash needs, daily desires, or
“professional” obligations. What might be set aside for “personal use” one day, may need
to be distributed or sold the next. Forcing the district court to parse such shifting aspirations
would be inordinately difficult where the accomplice may not even be available to testify
at sentencing.
Taken for what it is, Williamson’s proposed exception is quite unsound. It portends
little more than an erosion of the weight-based scheme created by Congress for punishing
drug offenses. For the above reasons, we decline to pursue that path, and hold that drugs
distributed for the “personal use” of an accomplice may be included as relevant conduct
for the crime of aiding-and-abetting the distribution of a controlled substance. The district
court thus did not err when it included such quantities in sentencing Williamson.
III.
Williamson raises a second objection to his sentence. Aside from any potential legal
error, he argues, the district court nonetheless abused its discretion by basing its analysis
so heavily on Saeger’s testimony. This because, Williamson maintains, Saeger was not
credible and the government did not offer any corroborating proof for her shaky claims.
14

USCA4 Appeal: 18-4837

Doc: 39

15a
Filed: 03/23/2020

Pg: 15 of 16

We have little trouble rejecting this contention. “We review the district court’s
calculation of the quantity of drugs attributable to a defendant for sentencing purposes for
clear error.” United States v. Randall, 171 F.3d 195, 210 (4th Cir. 1999). In so doing, we
afford “great deference” to a district judge’s credibility determinations and how the court
may choose to weigh the evidence. See United States v. Henry, 673 F.3d 285, 292 (4th
Cir. 2012).
The district court did not commit clear error in its sentencing analysis. Under the
Guidelines, “[w]here there is no drug seizure or the amount seized does not reflect the scale
of the offense, the court shall approximate the quantity of the controlled substance.”
U.S.S.G. § 2D1.1 cmt., n.5. District courts enjoy considerable leeway in crafting this
estimate. Indeed, the court may “give weight to any relevant information before it,
including uncorroborated hearsay, provided that the information has sufficient indicia of
reliability to support its accuracy.” United States v. Wilkinson, 590 F.3d 259, 269 (4th Cir.
2010).
Relying on Saeger’s testimony and the presentence report, the district court made a
reasonable decision. For one, every issue raised here regarding Saeger’s credibility was
explored on cross-examination. Moreover, the district court did not draw some slapdash
drug quantity from Saeger’s testimony. Rather, as explained above, the district judge
reduced the possible weight attributable to Williamson at least twice over in a careful
manner: first, by focusing only on the percentage of “Ice,” and second, by accounting for
Williamson and Saeger’s time apart. At the end of the day, while Saeger’s testimony could
have supported an approximation of at least 540 grams of “Ice,” which would have
15

USCA4 Appeal: 18-4837

Doc: 39

16a
Filed: 03/23/2020

Pg: 16 of 16

corresponded to a base offense level of 34, the district court erred on the side of caution
and selected a base offense level of 32 that corresponded to only 150 to 500 grams of “Ice.”
This approach faithfully adheres to our precedents. See Bell, 667 F.3d at 441. In so many
words, the district court did not err at all here, let alone do so clearly.
IV.
Our holding in this matter follows from the plain text of the Guidelines, and the
congressional policy judgments incorporated therein. It need not, however, augur a
draconian sentencing regime. District courts must still exercise caution in estimating drug
quantity at sentencing, and not attribute speculative or scantily supported amounts to
defendants. See United States v. Cook, 76 F.3d 596, 604 (4th Cir. 1996). Likewise, those
sentencing ranges compelled by federal statute still turn on the drug quantity involved in
the offense of conviction, and defendants involved with smaller drug weights will face
lesser sentences.
If this remains cold comfort for some, their pleas should be directed to Congress or
the Sentencing Commission. While federal judges possess discretion in sentencing, that
discretion does not amount to a form of legislative power in disguise. Our sole function is
to apply the law as written. Accordingly, the judgment of the district court is
AFFIRMED.

16

17a

USCA4 Appeal: 18-4837

Doc: 40-1

Filed: 03/23/2020

Pg: 1 of 1

FILED: March 23, 2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
___________________
No. 18-4837
(5:18-cr-00022-JPB-JPM-1)
___________________
UNITED STATES OF AMERICA
Plaintiff - Appellee
v.
CHARLES C. WILLIAMSON
Defendant - Appellant
___________________
JUDGMENT
___________________
In accordance with the decision of this court, the judgment of the district
court is affirmed.
This judgment shall take effect upon issuance of this court's mandate in
accordance with Fed. R. App. P. 41.
/s/ PATRICIA S. CONNOR, CLERK

18a
Case 5:18-cr-00022-JPB-JPM Document 70 Filed 11/08/18 Page 1 of 7 PageID #: 228
AO 2458 (Rev. 02, 18) Judgment in a Crimin.ii Cu~c
Sheet I

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF WEST VIRGINIA

UNITED STATES OF AMERICA
v.
CHARLES C. WILLIAMSON

THE DEFENDANT:

liZl pleaded guilty to count(s)

)
)
)
)
)
)
)
)
)

JUDGMENT IN A CRIMINAL CASE
Case Number: 5:18CR22-01

USM Number: 12546-087
David W. Frame
Dcfcnd11nt's Attorney

2 - Indictment

D pleaded nolo contendere to count(s)
which was accepted by the court.

0 was found guilty on count(s)
after a pica ofnot guilty.
The defendant is adjudicated guilty of these offenses:
Title & Section
21 U.S.C. §§ 841(a)(1 ),

Nature or Offense

Offense Ended

Aiding and Abetting the Distribution of Methamphetamine

Count

11/14/2017

2

841(b)(1)(C) and
18 u.s.c. § 2

0 Sec additional count(s) on page 2
The defendant is sentenced as provided in pages 2 through _ _7_ _ of this judgment. The sentence is imposed pursuant to
the Sentencing Reform Act of 1984.

0 The defendant has been found not guilty on count(s)
ra'count(s) I and 3 are dismissed on the motion of the United States.
It is ordered that the defendant must notify the United Stales attorney for this district within 30 days of any change of name, residence,
or mailing address until all fines, restitution, costs, and special assessments imposed by this judgment are fully paid. If ordered to pay
restilution, the defendant must notify the court and Uni1ed Stales attorney of material changes in economic circumstances.
November 7, 2018

... .,..,..,.. ,u......,

&:._

~.; t:), ~

----

Honorable John Preston Bailey, United States District Judge
Name and Title of Judge

Date

19a
Case 5:18-cr-00022-JPB-JPM Document 70 Filed 11/08/18 Page 2 of 7 PageID #: 229
AO 245B (Rev. 02i1 8) Judgment in u Criminal Cose
Sheet 2 - Imprisonment
Judamcnt - l'ogc _ _
2_

of

7

DEFENDANT: CHARLES C. WILLIAMSON
CASE NUMBER: 5:18CR22-01

IMPRISONMENT
The defendant is hereby committed to the custody of the Federal Bureau of Prisons to be imprisoned for a total
term of: 121 months

~

The court makes the following recommendations to the Bureau of Prisons:
That the defendant be incarcerated at an FCI or a facility a~ close to
Paden City, WV
as possible;
Ill and at a facility where the defendant can participate in substance abuse treatment, as determined by the Bureau of Prisons;
l!1' including the 500-Hour Residential Drug Abuse Treatment Program.

Ill

O

_ _ _ _ _ _ _ _ _ _ _ _ or a facility as close to his/her home in
That the defendant be incarcerated at
_ _ _ _ _ _ _ _ _ _ _ _ _ _.a, possible;

O

and at a facility where the defendant can participate in substance abuse treatment, as determined by the Bureau of Prisons;
0 including the 500-Hour Residential Drug Abuse Treatment Program.

□
□
~ That the defendant be allowed lo participate in any educational or vocational opportunities while incarcerated, as determined by
the Bureau of Prisons.

00

Pursuant to 42 U.S.C. ~ 14135A, the defendant shall submit to DNA collection while incarcerated in the Bureau of Prisons,
or at the direction of the Probation Officer.

[!f

The defendant is remanded to the custody of the United States Marshal.

0

The defendant shall surrender to the United States Marshal for this district:

0

_________

0

at

0

as notified by the United States Marshal.

□

a.m.

D p.m.

on

The defendant shall surrender for service of sentence at the institution designated by the Bureau of Prisons:

0

before 12:00 pm (noon) _;:;_
o"'n"_ _ _ _ _ _ _ __

0

as notified by the United States Marshal.

O

as notified by the Probation or Pretrial Services Office.

0

on - - - - - - - - - - '' as directed by the United States Marshals Service.

□

RETURN
I have executed this judgment as follows:
Defendant delivered on
at _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ ,

to .•_ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _
with a certified copy of this judgment.

UNITED STATES MARSHAL

By - - - -

DEPUTY UNITED STATES MARSHAL

20a
Case 5:18-cr-00022-JPB-JPM Document 70 Filed 11/08/18 Page 3 of 7 PageID #: 230
AO 2458 (Rev. 02'18) Judgment inn Criminal Case
Sheet 3 - Supervised Release:
Judgment- Page ___A_ of

7

DEFENDANT: CHARLES C. WILLIAMSON
CASE NUMBER: 5;18CR22-01

SUPERVISED RELEASE
Upon release from imprisonment, you will be on supervised release for a term of: 3 years

MANDATORY CONDITIONS
I.

You must not commit another federal, state or local crime.

2.
3.

You must not unlawfully possess a controlled substance.
You must refrain from any unlawful use ofa controlled substance. You must submit to one drug test within IS days of release from
imprisonment and at least two periodic drug tests thereafter, as determined by the probation officer.
D The above drug testing condition is suspended, based on the court's determination that you
pose a low risk of future substance abuse. (clt,ck ifnpplirable)

4.

D You must make restitution in accordance with 18 U.S.C. §§ 3663 and 3663A or any other statute authorizing a sentence of
restitution. (c/Jtek ifapp/irnbleJ

5.

~ You must cooperate in the collection of DNA as directed by the probation officer. (check If applicable)

6.

D You must comply with the requirements of the Sex Offender Registration and Notification Act (34 U.S.C. § 20901, et seq.) as
directed by the probation officer, the Bureau of Prisons, or any state sex offender registration agency in the location where you
reside, work, are a student, or were convicted of a qualifying offense. (check Ifapplicable)

7.

D

You must participate in an approved program for domestic violence. (check ifapplicable)

You must comply with the standard conditions that have been adopted by this court as well as with any other conditions on the attached
page.

21a
Case 5:18-cr-00022-JPB-JPM Document 70 Filed 11/08/18 Page 4 of 7 PageID #: 231
AO 245B (Rev. 021 18) Jud11mc:n1 in a Cnminal Case

Sbssl 'A

Sunro tscd Rcl,ass:

DEFENDANT: CHARLES C. WILLIAMSON
CASE NUMBER: 5: 18CR22-01

Judgment Pace

4
-----

of

7
---'----

STANDARD CONDITIONS OF SUPERVISION
As part of your supervised release, you must comply with the following standard conditions of supervision. These conditions are imposed
because they establish the basic expectations for your behavior while on supervision and identify the minimum tools needed by probation
officers to keep infom1ed, report to the court about, ond bring about improvements in your conduct and condition.
I.
2.
3.
4.
5.
6.
7.

8.
9.

10.
11.
12.

13.
14.
15.
16.
17.

18.

19.

Y011 must report to the probation office in the federal judicial district where you are authorized to reside within 72 hours of your
release from imprisonment, unless the probation officer instructs you to report to a different probation office or within a different
time frame.
After initially reporting to the probation office, you will receive instructions from the court or the probation officer about how and when
you must report to the probation officer, and you must report to the probation officer as instructed.
You shall not commit another federal, state or local crime.
You shall not unlawfully J>?Ssess a controlled substance. You shall refrain from any unlawful use ofa controlled substance. You shall
submit to one drug test within 15 days of release from imprisonment and at least two periodic drug tests thereafter, as determined by the
probation officer.
You must not knowingly leave the federal judicial district where you are authorized to reside without first getting permission from the
court or the probation officer.
You must answer truthfully the questions asked by your probation officer.
You must live at a place approved by the probation officer. If you plan to change where you live or anything about your living
arrangements (such as the people you live with), yon must notify the probation officer at least 10 days before the change. If notifying
the probation officer in advance is not possible due to unanticipated circumstances, you must notify the probation officer within 72
hours of becoming aware of a change or expected change.
You must allow the probation officer to visit you at any time at your home or elsewhere, and you must pennit the probation officer to
take any items prohibited by the conditions of your supervision that he or she observes in plain view.
You must work full time (at least 30 hours per week) at a lawful type of employment, unless the probation officer excuses you from
doing so. If you do not have full-time employment yon must try to find full-time employment, unless the probation officer excuses
you from doing so. If you plan to change where you work or anything about your work (such as your position or your job
responsibilities), you must notify the probation officer at least IO days before the change. If notifying the probation officer at least 10
days in advance is not possible due to unanticipated circumstances, you must notify the probation officer within 72 hours of
becoming aware of a change or expected change.
You must not communicate or interact with someone you know is engaged in criminal activity. If you know someone has been
convicted ofa felony, you must not knowingly communicate or interact with that person without first getting the pem1ission of the
probation officer.
If you are arrested or questioned by a law enforcement officer, you must notify the probation officer within 72 hours.
You must not own, possess, or have access to a firearm, ammunition, destructive device, or dangerous weapon (i.e., anything that was
designed, or was modified for, the specific purpose of causing bodily injury or death to another person such as nunchakus or lasers).
You must not act or make any agreement with a law enforcement agency to act as a confidential human source or informant without
first getting the permission of the court.
If the probation officer determines that you pose a risk lo another person (including an organization), the probation officer may
require you to notify the person about the risk and you must comply with that instruction. The probation officer may contact the
person and confirm that you have notified the person about the risk.
You shall not purchase, possess or consume any organic or synthetic intoxicants, including bath salts, synthetic cannabinoids or other
designer stimulants.
You shall not frequent places that sell or distribute synthetic cannabinoids or other designer stimulants.
Upon reasonable suspicion by the probation officer, you shall submit your person, property, house, residence, vehicle, papers,
computers, or other electronic communications or data storage devices or media, or office, to a search conducted by a United States
Probation Officer. Failure to submit to a search may be grounds for revocation of release. You shall warn any other occupants that
the premises may be subject to searches pursuant to this condition.
You are prohibited from possessing a potentially vicious or dangerous animal or residing with anyone who possess a potentially
vicious or dangerous animal. The: probation officer has sole authority to determine what animals are considered to be
potentially vicious or dangerous.
You must follow the instructions of the probation officer related to the conditions of supervision.

U.S. Probation Office Use Only
A U.S. probation officer has instructed me on the conditions specified by the court and has provided me with a written copy of this
judgment containing these conditions. For further information regarding these conditions, see Overview ofProbation and Supervised
Release Conditions, available at: www.uscourts.iiov.
Defendant's Signature

Date

------------

22a
Case 5:18-cr-00022-JPB-JPM Document 70 Filed 11/08/18 Page 5 of 7 PageID #: 232
AO 2-15B (Rev. 02/18)

Judgment in a Criminal Case

sheet 3D - Supervised Rel£"'f
Judpncnt- Pagc

_ 5_

of

7

DEFENDANT: CHARLES C. WILLIAMSON
CASE NUMBER: 5:18CR22-01

SPECIAL CONDITIONS OF SUPERVISION
1) You must participate in substance abuse treatment. The probation officer will supervise your participation in the
program.
2) You must submit to substance abuse testing to determine if you have used a prohibited substance. You must not
attempt to obstruct or tamper with the testing methods.
3) You must comply with the Northern District of West Virginia Offender Employment Program which may include
participation in training, counseling, and/or daily job search as directed by the probation officer. Unless excused for
legitimate reasons, if not in compliance with the condition of supervision requiring full-time employment at a lawful
occupation, you may be required to perform up to 20 hours of community service per week until employed, as approved by
the probation officer.

23a
Case 5:18-cr-00022-JPB-JPM Document 70 Filed 11/08/18 Page 6 of 7 PageID #: 233
AO 245B (Rev. 02/18) Judgment in a Criminal Case
Sheet 5 Criminal Monetary Penalties

_ 6__

Judgment - Page

or

DEFENDANT: CHARLES C. WILLIAMSON
CASE NUMBER: 5:18CR22-01

7

CRIMINAL MONETARY PENALTIES
The defendant must pay the total criminal monelary penalties under the schedule of payments on Sheet 6.
Assessment
TOTALS

S 100

JVTA Assessment*

Fine

S 0

Restitution
$ 0

S 0

D

The detennination of restitution is deferred until _ __
after such detennination.

D

The defendant must make restitution (including community restitution) to the following payees in the amount listed below.

• An Amended Judgment in a Criminal Case (AO USC) will be entered

If the defendant makes a partial payment, each payee shall receive an approximately proportioned payment. unless specified otherwise
in the priority order or percentage payment column belov.. However, pursuant to 18 U.S.C. § 3664(i), all nonfederal victims must be
paid before the United States is paid.
The victim's recovery is limited to the amount of their loss and the defendant's liability for restitution ceases if and when the victim
receives full restitution.
Restitution Ordered

Total Loss**

Name of Payee

Priority or Percentage

,-:--;,·~•.· . . ,.·. ·- 1:---- ,- . ·--:- -,
•~ •

~ •-

r. .... -

.

( --'\.•~

•

I

•

•·

• -

.. •

~

$ _ _ _ _ _ _ _ _ _ $ _ _ _ _ _ _ _ __

TOTALS

D

See Statement of Reasons for Victim Jnfonnation

D

Restitution amount ordered pursuant to plea agreement $

D

The defendant must pay interest on restitution and a fine of more than $2,500, unless the restitution or fine is paid in full before the
fifteenth day after the date of the judgment, pursuant to 18 U.S.C. § 3612(f). All of the payment options on Sheet 6 may be subject
to penalties for delinquency and default, pursuant to I 8 U.S.C. § 3612(g).

D

The court detennined that the defendant does not have the ability to pay interest and it is ordered that:
□

the interest requirement is waived for the

D

the interest requirement for the

D

fine

D
D

fine

D

restitution.

restitution is modified as follows:

• Justice for Victims of Trafficking Act of201S, Pub. L. No. 114-22.
•• Findings for the total amount oflosses are required under Chapters 109A, 110, 11 0A, and 113A of Title 18 for offenses committed on or
after September 13, 1994, but before April 23, 1996.

24a
Case 5:18-cr-00022-JPB-JPM Document 70 Filed 11/08/18 Page 7 of 7 PageID #: 234
AO 245B (Rev. 02/18} Ju<lgmcnt in a Criminal Case
Sheet 6 - Schedule of Payments

Judimmt - Page

_ 7__

of

7

DEFENDANT: CHARLES C. WILLIAMSON
CASE NUMBER: 5:18CR22-01

SCHEDULE OF PAYMENTS
Having assessed the defendant's ability to pay, payment of the total criminal monetary penalties is due as follows:
A

Iii

Lump sum payment of$

□ not laler than
□ in accordance with □

100

due immediately, balance due
, or

□

C

D,

DE, D F, or D G below); or

B

D

Payment to begin immediately (may be combined with

C

D

Payment in equal ____

_

De,

DD,

D F,or D G below); or

(e.g., weekly, monthly, quarterly) installments of S

(e.g., monlhs or years), to commence

_ _ _ _ _ _ _ over a period of
____ (e.g.. 30 or 60 days) after the date of this judgment; or

D

D

Payment in equal _ _ _ _ _ _ (e.g., weekly, monthly, quarterly) installments of $
over a period of
(e.g.• months or years), to commence
_ _ _ _ (e.g.• 30 or 60 days) after release from imprisonment to a
term of supervision; or

E

D

Payment during the term of supervised release will commence within _ _ _ _ _ (e.g.• 30 or 60 days) after release from
imprisonment. The court will set the payment plan based on an assessment of the defendant's ability to pay at that time; or

F

liZ)

Special instructions regarding the payment of criminal monetary penalties:
Financial obligations ordered arc to be paid while the defendant is incarcerated, and if payment is not completed during
incarceration, it is to be completed by the end of the tenn of supervised release; or

G

D

Special instructions regarding the payment of criminal monetary penalties:
The defendant shall immediately begin making restitution and/or fine payments of$_-=---=------=-- per month, due on the first
of each month. These payments shall be made during incarceration, and if necessary, during supervised release.

Unless the court has expressly ordered otherwise, if this judgment imposes imprisonment, payment of criminal monetary penalties is due
during the period of imprisonment. All criminal monetary penalties, except those payments made through the Federal Bureau of Prisons'
Inmate Financial Responsibility Program, are made to Clerk, U. S. District Court, Northern District of West Virginia, P.O. Box 1518.
Elkins, WV 26241.
The defendant shall receive credit for all payments previously made toward any criminal monetary penalties imposed.

0

Joint and Several
Defendant and Co-Defendant Names and Case Numbers (including defendant number), Total Amount, Joint and Several Amount,
and corresponding payee, if appropriate.

D

The defendant shall pay the cost of prosecution.

D

The defendant shall pay the following court cost(s):

~

The defendant shall forfeit the defendant's interest in the following property to the United States:
The defendant shall forfeit $400.00 seized in the search of the defendant's apartment on November 17, 2017.

Payments shall be applied in the following order: (I) assessment, (2} restitution principal, (3) restitution interest1 (4) fine principal, (5) fine
interest, (6) community restitution, (7) JVTA assessment, (8) penalhes, and (9) costs, mcludmg cost ofprosecutton and court costs.

25a

USCA4 Appeal: 18-4837

Doc: 44

Filed: 04/20/2020

Pg: 1 of 1

FILED: April 20, 2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
___________________
No. 18-4837
(5:18-cr-00022-JPB-JPM-1)
___________________
UNITED STATES OF AMERICA
Plaintiff - Appellee
v.
CHARLES C. WILLIAMSON
Defendant - Appellant
___________________
ORDER
___________________
The court denies the petition for rehearing.
Entered at the direction of the panel: Judge Wilkinson, Judge Niemeyer, and
Judge Motz.
For the Court
/s/ Patricia S. Connor, Clerk

